                Department of Veterans Affairs
                Office of Inspector General


                  Office of Healthcare Inspections

Report No. 13-00026-213


        Community Based Outpatient 

             Clinic Reviews at 

           Central Texas Veterans 

            Health Care System 

                Temple, TX 

                     and 

        VA Texas Valley Coastal Bend 

            Health Care System 

               Harlingen, TX 





June 13, 2013

                      Washington, DC 20420
                     Why We Did This Review
The VA OIG is undertaking a systematic review of the VHA’s CBOCs to assess
whether CBOCs are operated in a manner that provides veterans with
consistent, safe, high-quality health care.

The Veterans’ Health Care Eligibility Reform Act of 1996 was enacted to
equip VA with ways to provide veterans with medically needed care in a
more equitable and cost-effective manner. As a result, VHA expanded the
Ambulatory and Primary Care Services to include CBOCs located throughout
the United States. CBOCs were established to provide more convenient
access to care for currently enrolled users and to improve access opportunities
within existing resources for eligible veterans not currently served.

Veterans are required to receive one standard of care at all VHA health care
facilities. Care at CBOCs needs to be consistent, safe, and of high quality,
regardless of model (VA-staffed or contract). CBOCs are expected to comply
with all relevant VA policies and procedures, including those related to quality,
patient safety, and performance.

  To Report Suspected Wrongdoing in VA Programs and Operations
                      Telephone: 1-800-488-8244
                      E-Mail: vaoighotline@va.gov
   (Hotline Information: http://www.va.gov/oig/hotline/default.asp)
               CBOC Reviews at Central Texas Veterans HCS and VA Texas Valley Coastal Bend HCS



                                           Glossary
                       C&P       credentialing and privileging
                       CBOC      community based outpatient clinic
                       CDC       Centers for Disease Control and Prevention
                       EHR       electronic health record
                       EKG       electrocardiogram
                       EM        emergency management
                       EOC       environment of care
                       FPPE      Focused Professional Practice Evaluation
                       FY        fiscal year
                       HCS       Health Care System
                       LCSW      Licensed Clinical Social Worker
                       LIP       Licensed Independent Practitioner
                       LPC       Licensed Professional Counselor
                       MH        mental health
                       NC        noncompliant
                       NCP       National Center for Health Promotion and
                                 Disease Prevention
                       OI&T      Office of Information and Technology
                       OIG       Office of Inspector General
                       OPC       Outpatient Clinic
                       PCP       primary care provider
                       VHA       Veterans Health Administration
                       VISN      Veterans Integrated Service Network
                       WH        women’s health




VA OIG Office of Healthcare Inspections
                    CBOC Reviews at Central Texas Veterans HCS and VA Texas Valley Coastal Bend HCS



                                            Table of Contents 

                                                                                                                            Page 

Executive Summary ...................................................................................................             i


Objectives and Scope ................................................................................................             1

  Objectives ...............................................................................................................      1

  Scope and Methodology .........................................................................................                 1


CBOC Profiles ............................................................................................................        3


WH and Vaccination EHR Reviews – Results and Recommendations..................                                                    4

  WH..........................................................................................................................    4

  Vaccinations ...........................................................................................................        5


Onsite Reviews – Results and Recommendations.................................................. 8

  CBOC Characteristics ............................................................................................. 8

  C&P ........................................................................................................................ 9

  EOC and EM ........................................................................................................... 10


Appendixes
  A. Acting VISN 17 Director Comments ..................................................................                         14

  B. Central Texas Veterans HCS Director Comments.............................................                                   15

  C. VA Texas Valley Coastal Bend HCS Director Comments .................................                                        18

  D. OIG Contact and Staff Acknowledgments .........................................................                             22

  E. Report Distribution .............................................................................................           23





VA OIG Office of Healthcare Inspections
               CBOC Reviews at Central Texas Veterans HCS and VA Texas Valley Coastal Bend HCS



                                Executive Summary
Purpose: We evaluated select activities to assess whether the CBOCs operated in a
manner that provides veterans with consistent, safe, high-quality health care.

We conducted an onsite inspection of the Central Texas Veterans HCS’s CBOC during
the week of March 4, 2013, and the VA Texas Valley Coastal Bend HCS’s CBOCs
during the week of April 1, 2013.

The review covered the following topic areas:

   WH

   Vaccinations

   C&P

   EOC

   EM

For the WH and vaccinations topics, EHR reviews were performed for patients who
were randomly selected from all CBOCs assigned to the respective parent facilities.
The C&P, EOC, and EM onsite inspections were only conducted at the
randomly selected CBOCs (see Table 1).

    VISN        Facility                   CBOC Name             Location
                Central Texas
                                           Cedar Park            Cedar Park, TX
                Veterans HCS
                                           Corpus Christi
                                                                 Corpus Christi, TX
      17                                   Satellite
                VA Texas Valley
                                           Harlingen OPC         Harlingen, TX
                Coastal Bend HCS
                                           Laredo                Laredo, TX
                                           McAllen Satellite     McAllen, TX
                                     Table 1. Sites Inspected

Review Results: We made recommendations in four review areas.

Recommendations: The VISN and Facility Directors, in conjunction with the
respective CBOC managers, should take appropriate actions to:

Central Texas Veterans HCS

   Ensure that patients with normal cervical cancer screening results are notified of
    results within the defined timeframe and that notification is documented in the EHR.
   Ensure that clinicians administer pneumococcal vaccinations when indicated.


VA OIG Office of Healthcare Inspections                                                     i
               CBOC Reviews at Central Texas Veterans HCS and VA Texas Valley Coastal Bend HCS


	 Ensure that clinicians document all required tetanus and pneumococcal vaccination
   administration elements and that compliance is monitored.
	 Ensure that the service chief’s documentation in VetPro reflects documents
   reviewed and the rationale for re-privileging at the Cedar Park CBOC.

VA Texas Valley Coastal Bend HCS

	 Ensure that patients with normal cervical cancer screening results are notified of
   results within the defined timeframe and that notification is documented in the EHR.
	 Ensure that clinicians administer pneumococcal vaccinations when indicated.
	 Ensure that clinicians document all required pneumococcal                     vaccination
   administration elements and that compliance is monitored.
	 Ensure that the service chief’s documentation in VetPro reflects documents
   reviewed and the rationale for re-privileging at the Corpus Christi Satellite,
   Harlingen OPC, and Laredo CBOC.
	 Ensure that signage is installed at the Corpus Christi Satellite, Harlingen OPC, and
   McAllen Satellite to clearly identify the location of fire extinguishers.
	 Ensure that a panic alarm system is installed at the Laredo CBOC.
	 Ensure that medications are reviewed for need, secured, and only accessible by
   those individuals who either dispense or administer medications and that compliance
   is monitored at the Laredo CBOC.
	 Evaluate the placement of the telecommunications network and implement
   appropriate safety measures at the Corpus Christi Satellite.

Comments
The Acting VISN Director and Facility Directors agreed with the CBOC review findings
and     recommendations       and     provided      acceptable    improvement plans.
(See Appendixes A–C, pages 14–21, for the full text of the Directors’ comments.)
We will follow up on the planned actions until they are completed.




                                                       JOHN D. DAIGH, JR., M.D.
                                                      Assistant Inspector General for
                                                           Healthcare Inspections




VA OIG Office of Healthcare Inspections                                                     ii
                   CBOC Reviews at Central Texas Veterans HCS and VA Texas Valley Coastal Bend HCS



                                  Objectives and Scope 

Objectives
	 Evaluate whether CBOCs comply with selected VHA requirements regarding the
   provision of cervical cancer screening, results reporting, and WH liaisons.
	 Evaluate whether CBOCs properly provided selected vaccinations to veterans
   according to CDC guidelines and VHA recommendations.
	 Determine whether CBOC providers are appropriately credentialed and privileged in
   accordance with VHA Handbook 1100.19.1
	 Determine whether CBOCs are in compliance with standards of operations
   according to VHA policy in the areas of environmental safety and
   emergency planning.2

Scope and Methodology
Scope

We reviewed selected clinical and administrative activities to evaluate compliance with
requirements related to patient care quality and the EOC. In performing the reviews, we
assessed clinical and administrative records as well as completed onsite inspections at
randomly selected sites. Additionally, we interviewed managers and employees.
The review covered the following five activities:

      	   WH

      	   Vaccinations

      	   C&P

      	   EOC

      	   EM

Methodology

To evaluate the quality of care provided to veterans at CBOCs, we conducted
EHR reviews for the WH and vaccinations topic areas. For WH, the EHR reviews
consisted of a random sample of 50 women veterans (23–64 years of age).
For vaccinations, the EHR reviews consisted of random samples of
75 veterans (all ages) and 75 additional veterans (65 and older), unless fewer patients



1
    VHA Handbook 1100.19, Credentialing and Privileging, November 14, 2008.

2
    VHA Handbook 1006.1, Planning and Activating Community-Based Outpatient Clinics, May 19, 2004. 



VA OIG Office of Healthcare Inspections                                                                1
                    CBOC Reviews at Central Texas Veterans HCS and VA Texas Valley Coastal Bend HCS


were available, for the tetanus and pneumococcal reviews, respectively. The study
populations consisted of patients from all CBOCs assigned to the parent facility.3

The C&P, EOC, and EM onsite inspections were only conducted at the randomly
selected CBOCs.            Five CBOCs were randomly selected from the
56 sampled parent facilities, with sampling probabilities proportional to the numbers of
CBOCs eligible to be inspected within each of the parent facilities.4

In this report, we make recommendations for improvement. Recommendations pertain
to issues that are significant enough to be monitored by the OIG until corrective actions
are implemented.

We conducted the inspection in accordance with Quality Standards for Inspection and
Evaluation published by the Council of the Inspectors General on Integrity and
Efficiency.




3
    Includes all CBOCs in operation before October 1, 2011.

4
    Includes 96 CBOCs in operation before October 1, 2011, that had 500 or more unique enrollees.



VA OIG Office of Healthcare Inspections                                                              2
                                                                      CBOC Reviews at Central Texas Veterans HCS and VA Texas Valley Coastal Bend HCS



                                                                    CBOC Profiles 

To evaluate the quality of care provided to veterans at CBOCs, we designed reviews with an EHR component to capture data for
patients enrolled at all of the CBOCs under the parent facilities’ oversight.5 The table below provides information relative to each
of the CBOCs under the oversight of the respective parent facility.

                                                                                                       Uniques,                Visits,
VISN             Parent Facility                      CBOC Name                   Locality6                                                         CBOC Size9
                                                                                                       FY 20127               FY 20128
                                          Austin Satellite
                                                                   Urban                                 23,770               268,109                Very Large
                                             (Austin, TX)
                                             Brownwood
                                                                   Rural                                 3,028                 29,594                 Mid-Size
                                         (Brownwood, TX)
                                             Cedar Park
          Central Texas Veterans HCS                               Rural                                 6,598                 38,817                   Large
                                         (Cedar Park, TX)
                                      College Station (Bryan)
                                                                   Urban                                 4,317                 27,443                 Mid-Size
                                       (College Station, TX)
                                              Palestine
    17                                                             Rural                                 2,864                 22,014                 Mid-Size
                                          (Palestine, TX)
                                      Corpus Christi Satellite
                                                                   Urban                                 9,665                 76,654                   Large
                                        (Corpus Christi, TX)
                                          Harlingen OPC
                                                                   Urban                                 9,644                 57,062                   Large
         VA Texas Valley Coastal Bend     (Harlingen, TX)
                     HCS                       Laredo
                                                                   Urban                                 2,676                 16,416                 Mid-Size
                                            (Laredo, TX)
                                          McAllen Satellite
                                                                   Urban                                 10,043                99,894                Very Large
                                           (McAllen, TX)
                                                        Table 2. CBOC Profiles



5
  Includes all CBOCs in operation before October 1, 2011.

6
  http://vaww.pssg.med.va.gov/

7
  http://vssc.med.va.gov

8
  http://vssc.med.va.gov

9
  Based on the number of unique patients seen as defined by VHA Handbook 1160.01, Uniform Mental Health Services in VA Medical Centers and Clinics, 

September 11, 2008, the size of the CBOC facility is categorized as very large (> 10,000), large (5,000-10,000), mid-size (1,500-5,000), or small (< 1,500).



VA OIG Office of Healthcare Inspections                                                                                                                           3
                 CBOC Reviews at Central Texas Veterans HCS and VA Texas Valley Coastal Bend HCS



                    WH and Vaccination EHR Reviews 

                     Results and Recommendations 

WH
Cervical cancer is the second most common cancer in women worldwide.10 Each year,
approximately 12,000 women in the United States are diagnosed with cervical cancer.11
The first step of care is screening women for cervical cancer with the Papanicolaou test
or “Pap” test. With timely screening, diagnosis, notification, and treatment, the cancer is
highly preventable and associated with long survival and good quality of life.

VHA policy outlines specific requirements that must be met by facilities that provide
services for women veterans.12 We reviewed EHRs, meeting minutes and other
relevant documents, and interviewed key WH employees. Table 3 shows the areas
reviewed for this topic. The review elements marked as NC needed improvement.
Details regarding the findings follow the table.

            NC                                        Areas Reviewed
                               Cervical cancer screening results were entered into the
                               patient’s EHR.
                               The ordering VHA provider or surrogate was notified of results
                               within the defined timeframe.
       Central Texas           Patients were notified of results within the defined timeframe.
       Veterans HCS
      VA Texas Valley
     Coastal Bend HCS
                               Each CBOC has an appointed WH Liaison.
                               There is evidence that the CBOC has processes in place to
                               ensure that WH care needs are addressed.
                                                Table 3. WH

There were 23 patients who received a cervical cancer screening at the Central Texas
Veterans HCS’s CBOCs and 28 patients at VA Texas Valley Coastal Bend HCS’s
CBOCs.

Central Texas Veterans HCS

Patient Notification of Normal Cervical Cancer Screening Results. VHA requires that
normal cervical cancer screening results must be communicated to the patient in terms
easily understood by a layperson within 14 days from the date of the pathology report

10
   World Health Organization, Comprehensive Cervical Cancer Prevention and Control: A Healthier Future for 

Girls and Women, Retrieved (4/25/2013): http://www.who.int/reproductivehealth/topics/cancers/en/index.html.

11
   U.S. Cancer Statistics Working Group, United States Cancer Statistics: 1999-2008 Incidence and Mortality 

Web-based report. 

12
   VHA Handbook 1330.01, Health Care Services for Women Veterans, May 21, 2010. 



VA OIG Office of Healthcare Inspections                                                                         4
                   CBOC Reviews at Central Texas Veterans HCS and VA Texas Valley Coastal Bend HCS


becoming available. We reviewed 23 EHRs of patients who had normal cervical cancer
screening results and determined that 17 patients were not notified within the required
14 days from the date the pathology report became available.

Recommendation

1. We recommended that managers ensure that patients with normal cervical cancer
screening results are notified of results within the defined timeframe and that notification
is documented in the EHR.

VA Texas Valley Coastal Bend HCS

Patient Notification of Normal Cervical Cancer Screening Results. VHA requires that
normal cervical cancer screening results must be communicated to the patient in terms
easily understood by a layperson within 14 days from the date of the pathology report
becoming available. We reviewed 28 EHRs of patients who had normal cervical cancer
screening results and determined that 4 patients were not notified within the required
14 days from the date the pathology report became available.

Recommendation

2. We recommended that managers ensure that patients with normal cervical cancer
screening results are notified of results within the defined timeframe and that notification
is documented in the EHR.

Vaccinations
The VHA NCP was established in 1995. The NCP establishes and monitors the clinical
preventive services offered to veterans, which includes the administration of
vaccinations.13 The NCP provides best practices guidance on the administration of
vaccinations for veterans. The CDC states that although vaccine-preventable disease
levels are at or near record lows, many adults are under-immunized, missing
opportunities to protect themselves against diseases such as tetanus and
pneumococcal pneumonia.

Adults should receive a tetanus vaccine every 10 years. At the age of 65, individuals
that have never had a pneumococcal vaccination should receive one. For individuals
65 and older who have received a prior pneumococcal vaccination,
one-time revaccination is recommended if they were vaccinated 5 or more years
previously and were less than 65 years of age at the time of the first vaccination.

We reviewed documentation of selected vaccine administrations and interviewed
key personnel. Table 4 shows the areas reviewed for this topic. The review elements
marked as NC needed improvement. Details regarding the findings follow the table.



13
     VHA Handbook 1120.05, Coordination and Development of Clinical Preventive Services, October 13, 2009.


VA OIG Office of Healthcare Inspections                                                                      5
                    CBOC Reviews at Central Texas Veterans HCS and VA Texas Valley Coastal Bend HCS


              NC                                       Areas Reviewed
                               Staff screened patients for the tetanus vaccination.
                               Staff administered the tetanus vaccination when indicated.
                               Staff screened patients for the pneumococcal vaccination.
       Central Texas           Staff administered the pneumococcal vaccination when
       Veterans HCS            indicated.
      VA Texas Valley
     Coastal Bend HCS
       Central Texas            Staff properly documented vaccine administration.
       Veterans HCS
      VA Texas Valley
     Coastal Bend HCS
                                Managers developed a prioritization plan for the potential
                                occurrence of vaccine shortages.
                                              Table 4. Vaccinations

Central Texas Veterans HCS

Pneumococcal Vaccination Administration for Patients with Pre-Existing Conditions.
The CDC recommends that at the age of 65, individuals that have never had a
pneumococcal vaccination should receive one.14 For individuals 65 and older who have
received a prior pneumococcal vaccination, a one-time revaccination is recommended if
they were vaccinated 5 or more years previously and were less than 65 years of age at
the time of the first vaccination. We reviewed the EHRs of eight patients with
pre-existing conditions who received their first vaccine prior to the age of 65. We did
not find documentation in any of the EHRs indicating that their second vaccinations had
been administered.

Documentation of Vaccinations.         Federal Law requires that documentation for
administered vaccinations include specific elements, such as the vaccine manufacturer
and lot number of the vaccine used.15 We reviewed the EHRs of 17 patients who
received a tetanus vaccine administration at the parent facility or its associated CBOCs
and did not find documentation of all the required information related to tetanus vaccine
administration in 2 of the EHRs. We reviewed the EHRs of 36 patients who received a
pneumococcal vaccine administration at the parent facility or its associated CBOCs and
did not find documentation of all the required information related to
pneumococcal vaccine administration in 30 of the EHRs.

Recommendations

3. We recommended that managers ensure that clinicians administer pneumococcal
vaccinations when indicated.



14
     Centers for Disease Control and Prevention, http://www.cdc.gov/vaccines/vpd-vac/.
15
     Childhood Vaccine Injury Act of 1986 (PL 99 660) sub part C, November 16, 2010.


VA OIG Office of Healthcare Inspections                                                          6
                    CBOC Reviews at Central Texas Veterans HCS and VA Texas Valley Coastal Bend HCS


4. We recommended that managers ensure that clinicians document all required
tetanus and pneumococcal vaccination administration elements and that compliance is
monitored.

VA Texas Valley Coastal Bend HCS

Pneumococcal Vaccination Administration for Patients with Pre-Existing Conditions.
The CDC recommends that at the age of 65, individuals that have never had a
pneumococcal vaccination should receive one.16 For individuals 65 and older who have
received a prior pneumococcal vaccination, a one-time revaccination is recommended if
they were vaccinated 5 or more years previously and were less than 65 years of age at
the time of the first vaccination. We reviewed the EHRs of two patients with
pre-existing conditions who received their first vaccine prior to the age of 65. We did
not find documentation any of the EHRs indicating that their second vaccinations had
been administered.

Documentation of Pneumococcal Vaccination.               Federal Law requires that
documentation for administered vaccinations include specific elements, such as the
vaccine manufacturer and lot number of the vaccine used.17 We reviewed the EHRs of
32 patients who received a pneumococcal vaccine administration at the parent facility or
its associated CBOCs and did not find documentation of all the required information
related to pneumococcal vaccine administration in 21 of the EHRs.

Recommendations

5. We recommended that managers ensure that clinicians administer pneumococcal
vaccinations when indicated.

6. We recommended that managers ensure that clinicians document all required
pneumococcal vaccination administration elements and that compliance is monitored.




16
     Centers for Disease Control and Prevention, http://www.cdc.gov/vaccines/vpd-vac/.
17
     Childhood Vaccine Injury Act of 1986 (PL 99 660) sub part C, November 16, 2010.


VA OIG Office of Healthcare Inspections                                                          7
                            CBOC Reviews at Central Texas Veterans HCS and VA Texas Valley Coastal Bend HCS


                                        Onsite Reviews 

                                Results and Recommendations 

     CBOC Characteristics
     We formulated a list of CBOC characteristics that includes identifiers and descriptive
     information for the randomly selected CBOCs (see Table 5).

                                                   Corpus
                                                                       Harlingen                                  McAllen
                             Cedar Park            Christi                                   Laredo
                                                                         OPC                                      Satellite
                                                   Satellite
       VISN                        17                  17                   17                  17                    17

                              Central Texas      VA Texas Valley      VA Texas Valley     VA Texas Valley      VA Texas Valley
       Parent Facility
                              Veterans HCS      Coastal Bend HCS     Coastal Bend HCS    Coastal Bend HCS     Coastal Bend HCS
                                                                        Audiologist
                                                     LCSW                 Dentist             LCSW
                                                                                                                    LCSW
                                LCSW                  LPC                 LCSW                 LPC
                                                                                                              Physician Assistant
       Types of                  PCP            Nurse Practitioner         LPC           Nurse Practitioner
                                                                                                                     PCP
       Providers              Psychiatrist            PCP                  PCP                 PCP
                                                                                                                 Psychiatrist
                              Psychologist        Psychiatrist          Pharmacist         Psychiatrist
                                                                                                                 Psychologist
                                                  Psychologist          Psychiatrist       Psychologist
                                                                       Psychologist
       Number of MH
                                  930                 2,542               1,850                 806                 2,118
       Uniques, FY 2012
       Number of MH
                                 4,398               18,787               9,264                2,261                23,907
       Visits, FY 2012
       MH Services
                                  Yes                  Yes                 Yes                  Yes                  Yes
       Onsite
                                                                        Audiology
       Specialty Care                                                                        Podiatry              Podiatry
                                  WH                   WH                Dental
       Services Onsite                                                                         WH                    WH
                                                                          WH
                                                                           EKG
                                 EKG                  EKG                Nutrition                                  EKG
       Ancillary Services
                               Laboratory            Nutrition          Pharmacy               EKG                Pharmacy
       Provided Onsite         Radiology            Radiology        Physical Medicine                            Radiology
                                                                        Radiology
                            Care Coordination          MH                                                            MH
       Tele-Health                                         18               MH                  MH
                            Home Telehealth         MOVE!                                                          MOVE!
       Services                                                       Retinal Imaging     Retinal Imaging
                                  MH             Retinal Imaging                                               Retinal Imaging
                                                    Table 5. Characteristics




18
     VHA Handbook 1120.01, MOVE!® Weight Management Program for Veterans, March 31, 2011.


VA OIG Office of Healthcare Inspections                                                                                             8
                  CBOC Reviews at Central Texas Veterans HCS and VA Texas Valley Coastal Bend HCS


C&P
We reviewed C&P folders, scopes of practice, meeting minutes, and VetPro information
and interviewed senior managers to determine whether facilities had
consistent processes to ensure that providers complied with applicable requirements as
defined by VHA policy.19 Table 6 shows the areas reviewed for this topic. The CBOCs
identified as NC needed improvement. Details regarding the findings follow the table.

           NC                                         Areas Reviewed
                         Each provider’s license was unrestricted.
                                              New Provider
                         Efforts were made to obtain verification of clinical privileges
                         currently or most recently held at other institutions.
                         FPPE was initiated.
                         Timeframe for the FPPE was clearly documented.
                         The FPPE outlined the criteria monitored.
                         The FPPE was implemented on first clinical start day.
                         The FPPE results were reported to the medical staff’s
                         Executive Committee.
                                          Additional New Privilege
                         Prior to the start of a new privilege, criteria for the FPPE were
                         developed.
                         There was evidence that the provider was educated about FPPE
                         prior to its initiation.
                         FPPE results were reported to the medical staff’s
                         Executive Committee.
                                           FPPE for Performance
                         The FPPE included criteria developed for evaluation of the
                         practitioners when issues affecting the provision of safe,
                         high-quality care were identified.
                         A timeframe for the FPPE was clearly documented.
                         There was evidence that the provider was educated about FPPE
                         prior to its initiation.
                         FPPE results were reported to the medical staff’s
                         Executive Committee.
                                 Privileges and Scopes of Practice
      Cedar Park         The Service Chief, Credentialing Board, and/or medical staff’s
     Corpus Christi      Executive Committee list documents reviewed and the rationale for
        Satellite        conclusions reached for granting LIP privileges.
     Harlingen OPC
         Laredo
                         Privileges granted to providers were setting, service, and
                         provider specific.


19
     VHA Handbook 1100.19.


VA OIG Office of Healthcare Inspections                                                        9
               CBOC Reviews at Central Texas Veterans HCS and VA Texas Valley Coastal Bend HCS


         NC                              Areas Reviewed (continued)
                        The determination to continue current privileges was based in part
                        on results of the Ongoing Professional Practice Evaluation
                        activities.
                                          Table 6. C&P

Central Texas Veterans HCS – Cedar Park

Documentation of Re-Privileging Decisions. According to VHA, the list of documents
reviewed and the rationale for conclusions reached by the service chief must be
documented. We reviewed four LIPs at the Cedar Park CBOC and did not find
documentation in the service chief’s comments in VetPro that reflected the documents
utilized to arrive at the decision to grant clinical privileges to any of the providers.

Recommendation

7. We recommended that the service chief’s documentation in VetPro reflects
documents reviewed and the rationale for re-privileging at the Cedar Park CBOC.

VA Texas Valley Coastal Bend HCS – Corpus Christi Satellite, Harlingen OPC, and
Laredo

Documentation of Re-Privileging Decisions. According to VHA, the list of documents
reviewed and the rationale for conclusions reached by the service chief must be
documented. We reviewed four LIPs at the Corpus Christi Satellite, four LIPs at the
Harlingen OPC, and two LIPs at the Laredo CBOC. We did not find documentation in
the service chief’s comments in VetPro that reflected the documents utilized to arrive at
the decision to grant clinical privileges to two of four LIPs at the Corpus Christi Satellite,
any of the four LIPs at the Harlingen OPC, and either of the two LIPs at the Laredo
CBOC.

Recommendation

8. We recommended that the service chief’s documentation in VetPro reflects
documents reviewed and the rationale for re-privileging at the Corpus Christi Satellite,
Harlingen OPC, and Laredo CBOC.

EOC and EM
EOC

To evaluate the EOC, we inspected patient care areas for cleanliness, safety, infection
control, and general maintenance. We reviewed relevant documents and interviewed
key employees and managers. Table 7 shows the areas reviewed for this topic. The
CBOCs identified as NC needed improvement. Details regarding the findings follow the
table.




VA OIG Office of Healthcare Inspections                                                    10
               CBOC Reviews at Central Texas Veterans HCS and VA Texas Valley Coastal Bend HCS


        NC                                      Areas Reviewed
                     The CBOC was Americans with Disabilities Act compliant,
                     including: parking, ramps, door widths, door hardware, restrooms,
                     and counters.
                     The CBOC was well maintained (e.g., ceiling tiles clean and in
                     good repair, walls without holes, etc.).
                     The CBOC was clean (walls, floors, and equipment are clean).
                     Material safety data sheets were readily available to staff.
                     The patient care area was safe.
                     Access to fire alarms and fire extinguishers was unobstructed.
                     Fire extinguishers were visually inspected monthly.
                     Exit signs were visible from any direction.
                     There was evidence of fire drills occurring at least annually.
 Corpus Christi      Fire extinguishers were easily identifiable.
   Satellite
Harlingen OPC
McAllen Satellite
                     There was evidence of an annual fire and safety inspection.
      Laredo         There was an alarm system or panic button installed in
                     high-risk areas as identified by the vulnerability risk assessment.
                     The CBOC had a process to identify expired medications.
      Laredo         Medications were secured from unauthorized access.
                     Privacy was maintained.
                     Patients’ personally identifiable information was secured and
                     protected.
                     Laboratory specimens were transported securely to prevent
                     unauthorized access.
                     Staff used two patient identifiers for blood drawing procedures.
  Corpus Christi     Information Technology security rules were adhered to.
    Satellite
                     There was alcohol hand wash or a soap dispenser and sink
                     available in each examination room.
                     Sharps containers were less than 3/4 full.
                     Safety needle devices were available for staff use (e.g., lancets,
                     injection needles, phlebotomy needles).
                     The CBOC was included in facility-wide EOC activities.
                                       Table 7. EOC




VA OIG Office of Healthcare Inspections                                                    11
                 CBOC Reviews at Central Texas Veterans HCS and VA Texas Valley Coastal Bend HCS


VA Texas Valley Coastal Bend HCS – Corpus Christi Satellite, Harlingen OPC,
Laredo, and McAllen Satellite

Fire Extinguishers. The National Fire Protection Association Life Safety Code requires
identification of fire extinguisher locations when they are obscured from view.20
The Corpus Christi Satellite, Harlingen OPC, and McAllen Satellite had no signage
identifying the location of fire extinguishers. All fire extinguishers were recessed in the
wall and obscured from view.

Panic Alarms. The Laredo CBOC provides MH services but did not have panic alarms
for either the administrative or the clinical staff. The parent facility conducted a
vulnerability review in November 2010 and recommended the installation of a panic
alarm system; however, no action for the installation of an alarm system had been
implemented at the time of our inspection.

Medication Security. The Joint Commission requires that all medications are secured,
and VA policy has specific requirements for the security of controlled substances.21,22
The Laredo CBOC had injectable vials of medications, including controlled substances,
which were not secured and only accessible by those individuals who dispense or
administer the medications.

Information Technology Security and Safety. VA policy requires managers to position
information system components within the facility to minimize potential damage from
physical and environmental hazards and to minimize the opportunity for unauthorized
access.23 Additionally, VA policy defines an electrical room as an area in a building or
structure which contains a panel board, and water service shall not be provided in this
area.24 A closet at the Corpus Christi Satellite had functioning water access piping with
telephone lines and electrical breaker boxes, thus exposing the telecommunications
infrastructure to potential water damage and fire safety issues.

Recommendations

9. We recommended that signage is installed at the Corpus Christi Satellite,
Harlingen OPC, and McAllen Satellite to clearly identify the location of fire extinguishers.

10. We recommended that a panic alarm system is installed at the Laredo CBOC.

11. We recommended that medications are reviewed for need, secured, and only
accessible by those individuals who either dispense or administer medications at the
Laredo CBOC and that compliance is monitored.



20
   National Fire Protection Association, Standard for Portable Fire Extinguishers, 10 6.1.3.3.1.

21
   VA Handbook 0730/2, Security and Law Enforcement, May 27, 2010. 

22
   The Joint Commission, Medication Management 03.01.01, September 2010.

23
   VA Handbook 6500, Information Security Program, September 18, 2007.

24
   VA Office of Construction and Facilities Management, Electrical Design Manual 5.5 Electrical Rooms and 

Closets, December 2010. 



VA OIG Office of Healthcare Inspections                                                                       12
                  CBOC Reviews at Central Texas Veterans HCS and VA Texas Valley Coastal Bend HCS


12. We recommended that the placement of the telecommunications network be
evaluated and that appropriate safety measures are implemented at the Corpus Christi
Satellite.

EM
VHA policy requires each CBOC to have a local policy or standard operating procedure
defining how medical and MH emergencies are handled.25 Table 8 shows the areas
reviewed for this topic.

           NC                                    Areas Reviewed
                       There was a local medical EM plan for this CBOC.
                       The    staff   articulated   the   procedural    steps of the
                       medical emergency plan.
                       The CBOC had an automated external defibrillator onsite for
                       cardiac emergencies.
                       There was a local MH EM plan for this CBOC.
                       The    staff   articulated   the   procedural    steps of the
                       MH emergency plan.
                                            Table 8. EM

All CBOCs were compliant with the review areas; therefore, we made no
recommendations.




25
     VHA Handbook 1006.1.


VA OIG Office of Healthcare Inspections                                                       13
                 CBOC Reviews at Central Texas Veterans HCS and VA Texas Valley Coastal Bend HCS
                                                                                     Appendix A

                      Acting VISN 17 Director Comments


               Department of
               Veterans Affairs                                  Memorandum


       Date: 	          May 17, 2013

       From: 	          Acting Director, VISN 17 (10N17)

       Subject:         	CBOC Reviews at Central Texas Veterans HCS and
                         VA Texas Valley Coastal Bend HCS

       To: 	            Director, 54DA Healthcare Inspections Division (54DA)

                        Acting Director, Management Review Service (VHA 10AR
                        MRS OIG CAP CBOC)

       1. Thank you for allowing me to respond to this Community Based
          Outpatient Clinic (CBOC) Review of Cedar Park CBOC, TX,
          Corpus Christi Satellite, Harlingen Outpatient Clinic, Laredo CBOC,
          and McAllen Satellite, TX facilities.

       2. I concur with the recommendations and have ensured that action plans
          with target dates for completion were developed.

       3. If you have further questions regarding these CBOC reviews, please
          contact Denise B. Elliott, Quality Management Officer at
          (817) 385-3734.



       (original signed by:)

       Joleen Clark, MBA, FACHE 

       Acting Director, VA Heart of Texas Health Care Network (10N17) 





VA OIG Office of Healthcare Inspections                                                      14
               CBOC Reviews at Central Texas Veterans HCS and VA Texas Valley Coastal Bend HCS
                                                                                   Appendix B

          Central Texas Veterans HCS Director Comments



               Department of
               Veterans Affairs                                Memorandum


       Date:            May 16, 2013

       From:            Director, Central Texas Veterans HCS (674/00)

       Subject:         CBOC Reviews at Central Texas Veterans HCS

       To:              Acting Director, VISN 17 (10N17)

       1. I would like to express our sincere appreciation of the Office of
          Inspector General (OIG) Community Based Outpatient Clinic (CBOC)
          review team for their professionalism, consultative approach, and
          feedback provided during the review conducted on March 6, 2013.

       2. The 	recommendations were reviewed and our concurrence is
          delineated below. Corrective action plans have been developed and
          executed for continuous monitoring. CTVHCS welcomes the external
          perspective provided, which we will use to further strengthen the
          quality of care provided to our Veterans.

       3. Should you have questions or require additional information, please do
          not hesitate to contact Sylvia Tennent, Chief Quality Management and
          Improvement Service at (254) 743-0719.



       (original signed by:)

       Thomas C. Smith, III, FACHE 

       Director, Central Texas Veterans HCS (674/00) 





VA OIG Office of Healthcare Inspections                                                    15
               CBOC Reviews at Central Texas Veterans HCS and VA Texas Valley Coastal Bend HCS


                               Comments to OIG’s Report

The following Director’s comments are submitted in response to the recommendations
in the OIG report:

OIG Recommendations

1. We recommended that managers ensure that patients with normal cervical cancer
screening results are notified of results within the defined timeframe and that notification
is documented in the EHR.

Concur

Target date for completion: June 30, 2013

CTVHCS adopted a policy that requires normal screening results be communicated
within three business days with a notation in the electronic record. Monitoring will be
conducted monthly and reports will be submitted to the Medical Staff Executive Council
(MSEC) and the Executive Leadership Board (ELB) starting June 30, 2013.

3. We recommended that managers ensure that clinicians administer pneumococcal
vaccinations when indicated.

Concur

Target date for completion: June 30, 2013

The National Office for Health Promotion and Disease Prevention (NCP) is creating a
national clinical reminder to incorporate the need for re-vaccination. The target date is
not yet established.      During the interim a reporting strategy was created in
VISN 17 Data Mart in May 2013 which identifies by Primary Care Provider Veterans
requiring Pneumococcal Vaccine and/or re-vaccination.              The report includes
Veteran telephone numbers that Central Texas will use to generate an automated
telephone call to Veterans who require revaccination. The PACT Teamlets will also use
this report to identify patients requiring revaccination. Monitoring will be conducted
monthly and reports will be submitted to the Medical Staff Executive Council (MSEC)
and the Executive Leadership Board (ELB) starting June 30, 2013.

4. We recommended that managers ensure that clinicians document all required
tetanus and pneumococcal vaccination administration elements and that compliance is
monitored.

Concur

Target date for completion: Completed May 14, 2013




VA OIG Office of Healthcare Inspections                                                    16
               CBOC Reviews at Central Texas Veterans HCS and VA Texas Valley Coastal Bend HCS


The process has been strengthened in which the required items, including the VIS,
manufacturer, lot number, and expiration date were made mandatory in the
Medication Administration/Immunization note template of the Computerized Patient
Record System (CPRS) for all immunizations at CTVHCS, including influenza,
pneumococcal,      tetanus/TDAP,      shingles,    hepatitis, and     meningococcal.
Monthly monitoring will be conducted by Nursing Service to ensure compliance and
reports will be submitted to the Nursing Executive Council (NEC) and the ELB starting
June 1, 2013.

7. We recommended that the service chief’s documentation in VetPro reflects
documents reviewed and the rationale for re-privileging at the Cedar Park CBOC.

Concur

Target date for completion: Completed, March 7, 2013

The process has been strengthened to ensure the service chief’s documentation in
VetPro reflects documents reviewed and the rationale for privileging at the
Cedar Park CBOC and system-wide.           Monitoring is conducted weekly by
Credentialing service and monthly reports will be submitted to the
Professional Standards Board (PSB) and the Medical Staff Executive Council starting
June 4, 2013.




VA OIG Office of Healthcare Inspections                                                    17
               CBOC Reviews at Central Texas Veterans HCS and VA Texas Valley Coastal Bend HCS
                                                                                   Appendix C

     VA Texas Valley Coastal Bend HCS Director Comments


               Department of
               Veterans Affairs                                Memorandum


       Date:            May 10, 2013 


       From:            Director, VA Texas Valley Coastal Bend HCS (740/00) 


       Subject:         CBOC Reviews at VA Texas Valley Coastal Bend HCS 


       To:              Acting Director, VISN 17 (10N17)


       1. I concur with the findings noted in this report. 	Action plans have been
          developed and monitoring will be conducted on a regular basis.

       2. Should 	you require additional information, please                   contact
          Cathy Mezmar, Chief, Quality Management, (956) 430-9343.



       (original signed by:)

       Robert M. Walton 

       Director, VA Texas Valley Coastal Bend HCS (740/00) 





VA OIG Office of Healthcare Inspections                                                    18
               CBOC Reviews at Central Texas Veterans HCS and VA Texas Valley Coastal Bend HCS


                               Comments to OIG’s Report

The following Director’s comments are submitted in response to the recommendations
in the OIG report:

OIG Recommendations

2. We recommended that managers ensure that patients with normal cervical cancer
screening results are notified of results within the defined timeframe and that notification
is documented in the EHR.

Concur

Target date for completion: July 1, 2013

Re-education will be given to all providers on the defined time frame for patient
notification of normal cervical cancer screening results. Lab will also provide alerts for
cervical cancer screening results to both the ordering provider and the
Women        Veterans    Program     Manager.        To    ensure     compliance,     the
Women Veterans Program Manager will conduct monthly chart audits for patient
notification of normal cervical cancer screening results and documentation of the
notification in the EHR.

5.   We recommended that managers                    ensure    that   clinicians   administer
pneumococcal vaccinations when indicated.

Concur

Target date for completion: June 1, 2013

Nursing staff will be educated on the CDC guidelines regarding pneumococcal
vaccination. Monitoring compliance with the CDC guidelines will occur on a monthly
basis.

6. We recommended that managers ensure that clinicians document all required
pneumococcal vaccination administration elements and that compliance is monitored.

Concur

Target date for completion: June 1, 2013

The template for vaccination administration has been revised to ensure that all the
elements of vaccination administration are now in mandatory fields. Education on the
revised template will be provided for all nurses. Nurse Managers will monitor
compliance each month by reviewing the records of 30 patients who are due to receive
pneumococcal vaccine.




VA OIG Office of Healthcare Inspections                                                    19
               CBOC Reviews at Central Texas Veterans HCS and VA Texas Valley Coastal Bend HCS


8. We recommended that the service chief’s documentation in VetPro reflects
documents reviewed and the rationale for re-privileging at the Corpus Christi Satellite,
Harlingen OPC, and Laredo CBOC.

Concur

Target date for completion: June 1, 2013

The Chief Medical Officers (CMO’S) will be re-educated on the documentation process
in VetPro.      The Supervisor of Credentialing and Privileging will review all
VetPro CMO documentation to ensure that this documentation reflects the documents
reviewed and the rationale for re-privileging. All incomplete documentation will be
returned to the CMO for review and revision.

9. We recommended that signage is installed at the Corpus Christi Satellite,

Harlingen OPC, and McAllen Satellite to clearly identify the location of fire extinguishers. 


Concur


Target date for completion: Completed 


Signage was installed at the Corpus Christi Satellite, Harlingen OPC,                    and     

McAllen Satellite to clearly identify the location of fire extinguishers. 


10. We recommended that a panic alarm system is installed at the Laredo CBOC. 


Concur


Target date for completion: July 1, 2013 


The Lynx Panic Button system will be installed on every computer in our health system. 


11. We recommended that medications are reviewed for need, secured, and only
accessible by those individuals who either dispense or administer medications at the
Laredo CBOC and that compliance is monitored.

Concur

Target date for completion: September 1, 2013

A Pharmacist was sent to the Laredo CBOC on April 11, 2013 to review and determine
current medication needs for the clinic. This review resulted in the removal of excess
and unnecessary medications. The master key in the current clinic is now only
available to those individuals who either dispense or administer medications.
The Police Service will provide a security report on the current clinic key status as an
interim measure until the new clinic is in use.




VA OIG Office of Healthcare Inspections                                                    20
               CBOC Reviews at Central Texas Veterans HCS and VA Texas Valley Coastal Bend HCS


12. We recommended that the placement of the telecommunications network be
evaluated and that appropriate safety measures are implemented at the
Corpus Christi Satellite.

Concur

Target date for completion: July 1, 2013

The placement of the telecommunications network was evaluated by the
Chief of Facilities Management. The telephone patch panel will be secured or relocated
and the binder holders will be moved away from the electrical panels. It was confirmed
that the electrical conduit, fittings, and panels near the floor sink are sealed for water
resistance; therefore there is no imminent danger or code violation.




VA OIG Office of Healthcare Inspections                                                    21
               CBOC Reviews at Central Texas Veterans HCS and VA Texas Valley Coastal Bend HCS
                                                                                   Appendix D


                 OIG Contact and Staff Acknowledgments
Contact                 For more information about this report, please contact the OIG
                        at (202) 461-4720.
Onsite                  Rose Griggs, MSW, LCSW, Team Leader
Contributors            Cathleen King, MHA, CRRN
                        Larry Ross, MS
Other                   Shirley Carlile, BA
Contributors            Lin Clegg, PhD
                        Marnette Dhooghe, MS
                        Matt Frazier, MPH
                        Gayle Karamanos, MS, PA-C
                        Misti Kincaid, BS, Management and Program Analyst
                        Jennifer Reed, RN, MSHI
                        Victor Rhee, MHS
                        Trina Rollins, MS, PA-C
                        Patrick Smith, M. Stat
                        Marilyn Stones, BS
                        Mary Toy, RN, MSN
                        Jarvis Yu, MS




VA OIG Office of Healthcare Inspections                                                    22
               CBOC Reviews at Central Texas Veterans HCS and VA Texas Valley Coastal Bend HCS
                                                                                    Appendix E


                                   Report Distribution
VA Distribution

Office of the Secretary
Veterans Health Administration
Assistant Secretaries
General Counsel
Director, VISN 17 (10N17)
Director, Central Texas Veterans HCS (674/00)
Director, VA Texas Valley Coastal Bend HCS (740/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: John Cornyn, Ted Cruz
U.S. House of Representatives: John Carter, Michael K. Conaway, Henry Cuellar,
 Blake Farenthold, Bill Flores, Jeb Hensarling, Rubén Hinojosa, Michael T. McCaul,
 Lamar Smith, Filemon Vela


This report is available at www.va.gov/oig.




VA OIG Office of Healthcare Inspections                                                    23
